WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No. 20-6317

Robert Petty vy, Indiana
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:

Please enter my appearance as Counsel of Record for all respondents.

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed since your admission):

Bene ig 4. Lta.sop Leff

/4, 2020
(Type or print) Name StephenR.Creason

M@vr Ms. OMrs (Miss
Firm_Office of the Attorney General

 

 

 

Address Indiana Government Center South, 302 W. Washington Street, Fifth Floor
City & State Indianapolis, IN Zip 46204
Phone 317-232-6222

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Robert Petty DOC #106981
4490 W. Reformatory Road
Pendleton, IN 46064-9001
